APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(May 20, 2020). . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the United States District
Court for the District of New Jersey
(July 9, 2019). . . . . . . . . . . . . . . . App. 10
Appendix C Order in the United States District
Court for the District of New Jersey
(July 9, 2019). . . . . . . . . . . . . . . . App. 43
Appendix D Opinion in the United States District
Court for the District of New Jersey
(June 20, 2018) . . . . . . . . . . . . . . App. 46
Appendix E Order in the United States District
Court for the District of New Jersey
(June 20, 2018) . . . . . . . . . . . . . . App. 65

App. 1

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2807
[Filed May 20, 2020]
_____________________________
ANNA BARAN,
)
Appellant
)
)
v.
)
)
ASRC/MSE; ROSE WELLS
)
_____________________________ )
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 1:17-cv-07425)
District Judge: Honorable Renee M. Bumb
_____________
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 14, 2020
_____________
Before: CHAGARES, SCIRICA, and ROTH,
Circuit Judges

App. 2
____________
OPINION*
____________
CHAGARES, Circuit Judge.
Appellant Anna Baran claims that her former
employer Missions Solutions, LLC (“MSE”) defamed
her by falsely reporting that she had threatened
workplace violence. After a trial, the District Court set
aside the jury’s verdict in favor of Baran, holding that
her defamation claims are time-barred. We will affirm.
I.
We write for the parties and so recite only the facts
necessary to our disposition.
A.
Baran is a former employee of MSE, a military
defense contractor that supplies systems and software
engineering, integration services, and products for
mission-critical defense systems. Baran worked as a
Senior Quality Assurance Engineer, a position that
requires a security clearance, until she was terminated
for allegedly threatening to shoot three of her
supervisors at MSE.
According to Baran’s coworker Rosemarie Wells,
Baran had long complained that she was the victim of
“bullying” by one of her supervisors. Appendix (“App.”)
245. On January 7, 2013, Baran allegedly told Wells,
*

This disposition is not an opinion of the full Court and, pursuant
to I.O.P. 5.7, does not constitute binding precedent.

App. 3
“don’t be surprised if this place goes up,” and stated
that “if [she] had a gun,” she would shoot her three
supervisors. App. 244–45. Wells reported Baran’s
comments to MSE’s Facility Security Officer Francis
McKenna, and Baran was suspended pending an
investigation. During the investigation, Baran denied
making any threats. Nevertheless, on January 9, 2013,
Baran was arrested and charged with making a
terroristic threat. A few days later, on January 14,
2013, MSE terminated Baran’s employment.
On January 15, 2013, McKenna updated Baran’s
incident history in the Joint Personnel Adjudication
System (“JPAS”) to reflect the circumstances
surrounding Baran’s employment. JPAS is the U.S.
Department of Defense (“DOD”) personnel database of
record for security clearance processing. MSE claims
that McKenna entered this information as required by
federal regulations, reflected in the National Industrial
Security Program Operating Manual (“NISPOM”).
NISPOM directs employers to update JPAS with any
“adverse information about a cleared employee that
would indicate that [her] ability to protect classified
[information] might be compromised.” App. 253. On
May 1, 2013, McKenna finalized his earlier incident
report about Baran’s termination in JPAS (the “JPAS
Report”).
Although the criminal charges against Baran were
eventually dropped and her record was expunged, the
JPAS Report does not reflect this final disposition.
Baran claims that MSE’s comments about the nature
of her termination in the JPAS Report prevented her
from obtaining a comparable job; on one occasion, a job

App. 4
offer was rescinded because she was unable to obtain a
security clearance due to the description of events in
the JPAS Report.
B.
On January 6, 2015, Baran filed a complaint
against MSE in the Superior Court of New Jersey,
Burlington County, alleging claims including
defamation and retaliation. Over the course of several
years, the case was dismissed, reinstated, proceeded
through discovery, set for trial in state court, and then
removed to federal court pursuant to 28 U.S.C. § 1442.
The Superior Court had dismissed Baran’s
defamation claims as untimely before trial, leaving
only Baran’s retaliation claim. Baran moved for
reconsideration of this dismissal, however, arguing that
the defamation claims should be reinstated because
they were premised upon McKenna’s statements in the
JPAS Report. During oral argument on the motion,
Baran conceded that the statements in the JPAS
Report were made in 2013 and, therefore, that her
claims normally would be time-barred under New
Jersey’s one-year statute of limitations for defamation.
Baran argued, however, that her claims should be
tolled under the discovery rule, because she did not
learn of the JPAS Report until August 2014, when she
interviewed with a potential employer. The Superior
Court asked Baran’s counsel, “Does the discovery rule
apply to defamation?” to which she responded, “Yes,
I’m – I’m sorry.” App. 140. The Superior Court thus
held that the discovery rule applied and tolled Baran’s
claims. As a result, the court reinstated Baran’s
defamation claims.

App. 5
MSE then removed the case to federal court under
28 U.S.C. § 1442, asserting federal officer jurisdiction
because Baran’s defamation claims were based on
statements mandatorily entered into the DOD’s JPAS
system. After a four-day trial, the jury found that
MSE’s statements in the JPAS Report were false and
defamatory, and awarded Baran $3.5 million in
damages. Following the announcement of the verdict,
MSE renewed its motion for judgment as a matter of
law pursuant to Fed. R. Civ. P. 50(b) on the grounds
that Baran’s defamation claims were barred by the
statute of limitations.
The District Court granted MSE’s motion, holding
that because Baran’s defamation claims were based on
the statements in the JPAS Report, which was
finalized on May 1, 2013, and the discovery rule does
not apply to defamation claims in New Jersey, her
claims are time-barred. The District Court rejected
Baran’s argument that MSE abandoned its statute of
limitations defense by not including it in MSE’s
amended answer or the joint final pretrial order.
This timely appeal followed.
II.
The District Court had jurisdiction under 28 U.S.C.
§§ 1442(a)(1) and 1332, and we have appellate
jurisdiction under 28 U.S.C. § 1291. “We exercise
plenary review of an order granting or denying a
motion for judgment as a matter of law and apply the
same standard as the district court.” Lightning Lube,
Inc. v. Witco Corp., 4 F.3d 1153, 1166 (3d Cir. 1993).

App. 6
III.
Baran contends that MSE forfeited its statute of
limitations defense by failing to include it in MSE’s
amended answer or the joint final pretrial order and
that the discovery rule should be applied here.1 We
address each argument in turn.
A.
Baran first claims that the District Court erred in
“exercis[ing] its discretion to rule upon [MSE’s] statute
of limitations affirmative defense.” App. 43. We
disagree.2

1

Although the parties use the term “waiver,” the issue in this case
is more accurately described as one of forfeiture. See Barna v. Bd.
of Sch. Directors of Panther Valley Sch. Dist., 877 F.3d 136, 147
(3d Cir. 2017) (describing forfeiture as “the failure to make the
timely assertion of a right” and waiver as “the intentional
relinquishment or abandonment of a known right” (quotation
marks omitted)); see also Kontrick v. Ryan, 540 U.S. 443, 458
(2004) (analyzing the question of whether “Kontrick forfeited his
right to assert the untimeliness of Ryan’s amended complaint by
failing to raise the issue until after that complaint was adjudicated
on the merits”).
2

The parties disagree about the standard of review for this
argument: Baran claims our review is plenary, while MSE
contends that we review for abuse of discretion. Baran is correct
that “[i]nasmuch as the claim of [forfeiture] raises legal questions,
our review on the issue is plenary.” Bradford-White Corp. v. Ernst
& Whinney, 872 F.2d 1153, 1160 n.6 (3d Cir. 1989). Here, however,
we are reviewing the District Court’s determination that MSE did
not forfeit its statute of limitations defense. And “[w]e review a
lower court’s decision regarding the [forfeiture] of an affirmative
defense for abuse of discretion.” Sharp v. Johnson, 669 F.3d 144,

App. 7
Baran argues that MSE forfeited its statute of
limitations defense when it failed to include the
defense in either its amended answer or the joint final
pretrial order. It is true that parties should generally
“assert affirmative defenses early in litigation, so they
may be ruled upon, prejudice may be avoided, and
judicial resources may be conserved.” Robinson v.
Johnson, 313 F.3d 128, 134 (3d Cir. 2002). “However,
there is no hard and fast rule limiting defendants’
ability to plead the statute of limitations.” Cetel v.
Kirwan Fin. Grp., Inc., 460 F.3d 494, 506 (3d Cir.
2006). Indeed, “affirmative defenses can be raised by
motion, at any time (even after trial), if plaintiffs suffer
no prejudice.” Id. (emphasis added). Additionally, “[i]t
is well established that departure from or adherence to
the pretrial order is a matter peculiarly within the
discretion of the trial judge.” Beissel v. Pittsburgh &
Lake Erie R.R. Co., 801 F.2d 143, 150 (3d Cir. 1986).
Here, the District Court determined, and we agree,
that Baran suffered no undue prejudice because she
“knew of [MSE’s] statute of limitations objection for
almost two years before trial,” when she “sought to
keep the defamation claim[s] alive based on a
misapplication of the discovery rule” in the Superior
Court. App. 40. Although MSE could have raised the
issue earlier, either in its amended answer or the joint
final pretrial order, the Superior Court had previously
ruled that the issue was to be tried before a jury. See
App. 151 (Superior Court noting that it was “not
preventing [Baran] from putting together a case to
158 (3d Cir. 2012). Accordingly, we review the District Court’s
decision about forfeiture for abuse of discretion.

App. 8
bring to the jury on defamation,” although it “may not
let the . . . jury consider” the defamation claims
depending on the evidence presented at trial).
Indeed, MSE raised its statute of limitations
defense several times throughout the litigation,
including in its two motions to dismiss, opposition to
Baran’s motion for reconsideration, and pretrial brief.
In short, Baran had sufficient notice of MSE’s statute
of limitations defense and ample time to explore the
issue and prepare a response. The District Court,
therefore, was well within the bounds of its discretion
to allow MSE to raise this affirmative defense in its
Rule 50 motion, even if it had not done so in its
amended answer or the joint final pretrial order.
B.
Baran next argues that we should extend the
discovery rule to her defamation claims because the
JPAS Report was confidential and not accessible to
her.3 In New Jersey, however, the discovery rule cannot
extend the limitations period for defamation claims.
See Nuwave Inv. Corp. v. Hyman Beck & Co., 114 A.3d
738, 741 (N.J. 2015) (rejecting “plaintiffs’ invitation for
the Court to amend the applicable one-year statute of
limitations” for defamation claims because it is “bound
by the plain language of the statute” which “requires
all libel claims to be made within one year of the date
of the publication”).

3

We review this claim de novo, as it raises legal questions. See
Bradford-White Corp., 872 F.2d at 1160 n.6.

App. 9
Nevertheless, Baran urges us to find a limited
exception here in the interest of justice, which
“demands the application of the discovery rule in this
case where the jury has reached a verdict.” Baran Br.
24. Because Erie Railroad Co. v. Tompkins, 304 U.S. 64
(1938), requires us “to follow state law as announced by
the highest state court,” however, we must reject
Baran’s argument and defer to the Supreme Court of
New Jersey. Sheridan v. NGK Metals Corp., 609 F.3d
239, 253 (3d Cir. 2010) (quotation marks omitted).
*

*

*

Baran does not contest that if MSE did not forfeit
its statute of limitations defense, and if the discovery
rule does not apply, her defamation claims are timebarred. Indeed, as the District Court correctly found,
the statements in the JPAS Report were the only
evidence supporting Baran’s defamation claims; the
JPAS Report was finalized on May 1, 2013; and Baran
did not commence this action until January 6, 2015.
Baran’s defamation claims thus fall outside of New
Jersey’s one-year statute of limitations period. See N.J.
Stat. Ann. § 2A:14-3.4
IV.
For these reasons, we will affirm the order of the
District Court.
4

Because we will affirm the District Court’s holding that Baran’s
defamation claims are time-barred, we need not reach Baran’s
argument that MSE is not entitled to qualified immunity for any
defamatory conduct. Nor do we address Baran’s contention that
her “counsel did not make a misrepresentation to the state court.”
Baran Br. 27.

App. 10

APPENDIX B
[Dkt. No. 60]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
Civil No. 17-7425 (RMB/JS)
[Filed July 9, 2019]
________________________________
ANNA BARAN,
)
)
Plaintiff,
)
)
v.
)
)
ASRC FEDERAL, MISSION
)
SOLUTIONS, ROSE WELLS,
)
FRANCIS MCKENNA,
)
SUSAN GOLDBERG,
)
)
Defendants.
)
________________________________ )
OPINION
APPEARANCES:
HAGERTY & BLAND-TULL LAW LLC
By: LaTonya Bland-Tull, Esq.;
Robert J. Hagerty, Esq.
523 Haddon Avenue

App. 11
Collingswood, New Jersey 08108
Counsel for Plaintiff Anna Baran
LITTLER MENDELSON P.C.
By: William J. Leahy, Esq.;
Alexa J. Laborda Nelson, Esq.
Three Parkway
1601 Cherry Street, Suite 1400
Philadelphia, Pennsylvania 19102-1321
Counsel for Defendant Mission Solutions, LLC
RENÉE MARIE BUMB, United States District Judge:
Following four years of litigation – which included
almost three years in state court, removal to federal
court, and a four-day trial before this Court – the jury
spoke: Defendant Mission Solutions, LLC (“MSE” or
“Defendant”), owed its former employee, Plaintiff Anna
Baran, $3.5 million in compensatory damages for
defaming her by falsely reporting that she had
threatened workplace violence. It is a verdict that
Defendant contends must be set aside because
Plaintiff’s defamation claim was time-barred long
before she ever commenced suit.
As odd as it seems, it was not until the close of
Plaintiff’s case that the Court learned about the
parties’ longstanding disagreement over the statute of
limitations for the defamation claim. Defendant argues
that neither Plaintiff’s pleadings nor the evidence
presented at trial support a finding that any
defamatory conduct occurred within the statute of
limitations. Plaintiff disagrees, contending that a prior
state court ruling, which applied the “discovery rule”

App. 12
and ordered Plaintiff’s defamation claim to proceed to
trial, binds this Court as “law of the case.”
With the benefit of post-trial briefing, this Court
agrees with Defendant: the defamation claim should
have never proceeded to trial. Plaintiff clearly
misstated the law to the state court, precipitating the
state court’s erroneous application of the discovery rule
to a defamation claim. Thus, the state court’s
unfortunate and incorrect ruling that Plaintiff could
present her defamation claim to a jury, which extended
the case for years and resulted in the verdict in
Plaintiff’s favor, was a direct result of Plaintiff’s
misstatements.
This Court holds that a verdict caused by a legal
calamity of Plaintiff’s own creation cannot stand. For
that reason, Defendant’s Renewed Motion for
Judgment as a Matter of Law pursuant to Fed. R. Civ.
P. 50(b), or in the alternative a New Trial pursuant to
Fed. R. Civ. P. 59(a)(1) [Dkt. Nos. 59, 60, 67], will be
GRANTED, and the jury verdict on the defamation
claim will be set aside. The Court will direct the entry
of judgment on the jury’s verdict on the retaliation
claim and judgment as a matter of law in favor of
Defendant on the defamation claim.
I. FACTUAL BACKGROUND
Plaintiff Anna Baran is a former employee of MSE,
a military defense contractor that supplies systems
engineering, software engineering, integration services
and products for mission-critical defense systems.
Plaintiff worked for MSE as a Senior Quality
Assurance Engineer, a position that required security

App. 13
clearances, until she was terminated for allegedly
threatening to shoot three of her supervisors at MSE.
According to Plaintiff’s co-workers, Rosemarie Wells
and Gaynelle Johnson, Plaintiff had long complained
that she was the victim of “bullying” by one of her
supervisors, Sue Goldberg. On January 7, 2013,
Plaintiff allegedly told Wells, “don’t be surprised if this
place goes up.” Plaintiff allegedly stated that “if [she]
had a gun,” she would shoot Goldberg, Pat Brencher,
and Paul Nocito (her other supervisors). Given
Plaintiff’s history of complaining about “bullying,”
Wells became concerned and “very, very upset” about
Plaintiff’s statements. That same day, Wells reported
Plaintiff’s comments to MSE’s Facility Security Officer
Francis McKenna. Soon thereafter, Plaintiff was
suspended pending an investigation into her alleged
threats. During the investigation, Plaintiff denied
making any such threats. Despite Plaintiff’s denials,
she was arrested and charged with making a terroristic
threat on January 9, 2013. A few days later, January
14, 2013, Defendant terminated Plaintiff’s employment.
On January 15, 2013, McKenna updated Plaintiff’s
incident history in the Joint Personnel Adjudication
System (“JPAS” or the “JPAS system”) to reflect the
circumstances surrounding Plaintiff’s termination.
JPAS functions as the Department of Defense (“DoD”)
personnel database of record for security clearance
processing. According to MSE, McKenna entered this
information because federal regulations, reflected in
the National Industrial Security Program Operating
Manual (“NISPOM”), require MSE to update JPAS
with any “adverse information coming to their

App. 14
attention concerning any of their cleared employees.”
See NISPOM, Section 3, at 1-302(a). On May 1, 2013,
McKenna finalized his earlier incident report about
Plaintiff’s termination in JPAS (hereinafter referred to
as the “JPAS Report”). In its entirety, the JPAS Report
submitted by McKenna states:
“On 1/7/13 MSE employee [Rosemarie Wells]
advised FSO [Francis McKenna] that MSE
employee Anna Baran allegedly made
statements to [Rose] that she intended to go get
a rifle and return to MSE and shoot 3
employees. This was partly due to a human
resources issue in which Baran alleged
workplace bullying by her supervisor. On 1/8/13
Baran was sent home on administrative leave
while the allegations were investigated. The
Moorestown, NJ Police were notified (incident #
2003-000002810 and they interviewed [Rose] as
part of their investigation. Burlington County
Judge Lois Downey charged Baran with
terroristic threats and as a bail condition
ordered that Baran be evaluated by the
Screening Crisis Intervention Program. This
was done at 1AM on 1/9/13. She was released at
6AM and taken to the Burlington County Jail on
the above charge. MSE HR investigation was
done from 1/9-14/13 and the decision to
terminate Baran was made on 1/14/13.”
MSE Trial Ex. 27.
Although the criminal charges against Plaintiff
were eventually dropped, and her record was expunged,
the JPAS Report does not reflect the final disposition

App. 15
of that matter. In this action, Plaintiff contended that
MSE’s comments about the nature of her termination
in the JPAS Report prevented her from obtaining a
comparable job.1 In at least one instance, Plaintiff
claimed that a job offer was rescinded because she was
unable to secure a security clearance due to the
description of events in the JPAS Report.
Consequently, Plaintiff alleged that Defendant’s
actions continued to negatively impact her professional,
financial, and emotional well-being.
II. PROCEDURAL HISTORY
The procedural history of this case is long and
complicated. It began over four years ago, on January
6, 2015, when Plaintiff filed her original pro se
Complaint against Defendant in the Superior Court of
New Jersey, Law Division, Burlington County (Case
No. BUR-L-53-15). Throughout the course of those
years, the case had been dismissed, reinstated,
proceeded through discovery, and finally set for trial in
state court – all before it was removed to this Court
pursuant to 28 U.S.C. § 1442 (the “Federal Officer
Removal Statute”) on the eve of trial in state court.
A. Early Stages in New Jersey State Court
In her initial pro se Complaint, Plaintiff alleged
causes of action that she described as negligence,
malicious prosecution, intentional and negligence
infliction of emotional distress, defamation, slander,

1

As discussed infra Section IV.A, at trial, Plaintiff’s defamation
claim was based solely upon information contained in the JPAS
report.

App. 16
tortious interference, and retaliation. On April 24,
2015, the Superior Court granted Defendant’s Motion
to Dismiss and dismissed Plaintiff’s pro se Complaint
without prejudice, but ordered that: (1) Plaintiff was
required to retain legal counsel by July 1, 2015;
(2) Defendant was required to issue a neutral
employment reference; and (3) Defendant was required
to use its best efforts to assist Plaintiff in obtaining a
security clearance. [Dkt. No. 1-2, at 69].
Almost seven months passed before Plaintiff’s
current attorneys first entered an appearance on her
behalf on November 16, 2015. Another eight months
passed before Plaintiff filed a Motion to Correct a
Clerical Error and Amend Complaint on July 26, 2016,
seeking to reinstate the case. On October 6, 2016, the
Superior Court granted Plaintiff’s motion, reinstating
the case and permitting Plaintiff to file an Amended
Complaint. [Dkt. No. 1-2, at 72].
Plaintiff, at this point represented by counsel, filed
her Amended Complaint on October 18, 2016, almost
two years after she originally commenced the case.
Plaintiff’s Amended Complaint asserted four counts
against Defendant: (1) Defamation, Libel and Slander
(Count One); (2) Defamation, Libel and Slander per se
(Count Two); (3) Hostile Environment in violation of
the New Jersey Law Against Discrimination (“NJLAD”)
(Count Three); and (4) Retaliatory Discharge in
Violation of the NJLAD (Count Four). See Pl.’s Am.
Compl. [Dkt. No. 1-2, at 81-90].
On March 6, 2017, the Superior Court dismissed
Counts One, Two, and Three of Plaintiff’s Amended
Complaint, leaving only Plaintiff’s retaliation claim

App. 17
under the NJLAD (Count Four) as the parties
proceeded to discovery. [Dkt. No. 1-2, at 73-80]. After
the parties conducted depositions and other discovery
on Plaintiff’s lone remaining retaliation claim,
Defendant moved for summary judgment. In response,
Plaintiff filed a Motion for Reconsideration of the
Superior Court’s prior order dismissing the defamation
claims.
B. Motion for Reconsideration
At oral argument before Superior Court Judge John
E. Harrington on September 8, 2017, one month before
the scheduled trial, Plaintiff’s counsel argued for the
first time that her defamation claims should be
reinstated because they were premised upon
McKenna’s statements in the JPAS Report. During oral
argument, counsel for Plaintiff conceded that the
statements in the JPAS Report were made in 2013 and,
thus, would normally be time-barred under New
Jersey’s one-year statute of limitations for defamation
claims. See Superior Court Hearing Transcript,
September 8, 2017 (“Superior Court Transcript”)[Dkt.
No. 59-1, Ex. E], at 13:14-23. However, Plaintiff
argued, her claims should be tolled under the
“discovery rule,” because Plaintiff did not learn of the
existence of the JPAS Report until August 2014, when
it impacted her ability to obtain a security clearance.
See id., at 13:23-17:16. In relevant part, Plaintiff’s
counsel had the following exchange with Judge
Harrington:
THE COURT: Okay. From your perspective,
what is the operative date that is within the one
year? Because it’s a hard and fast rule unless

App. 18
you can tell me discovery or some other
exception. So, go.
MS. BLAND-TULL: Simply put, what Your
Honor just said is exactly true. Ms. Baran did
not discover this JPAS entry until she began to
search for employment.
THE COURT: When was that?
MS. BLAND-TULL: She was on unemployment
for a few months and, then, once she interviewed
with L3 in August of 2015, they –
MR. HAGERTY: ‘14.
MS. BLAND-TULL: I’m sorry. 2014, excuse me,
Your Honor. That is when she discovered and
they alerted her to the fact that they were
unable to continue or they had to rescind the
offer that was forthcoming to her –
THE COURT: Because –
MS. BLAND-TULL: – – because of this
information in the JPAS system. So, that is
when she first –
THE COURT: August of
MS. BLAND-TULL: – – learned of it.
THE COURT: All right. So, discovery is August
‘14. We’ll get into all whether it’s true or not.
August ‘14. So, if that’s the operative –that’s the
discovery date, it relates back to all these other
circumstances. So the defamation, even though
it occurred some time ago, would have been filed

App. 19
within time. Does the discovery rule apply to
defamation? I mean, I know it does –
MS. BLAND-TULL: Yes, I’m – – I’m sorry.
THE COURT: – – with neg – – with negligence
and –
MS. BLAND-TULL: I – – I was – – my partner
was just alerting me to the fact that, because I’m
getting my dates mixed up. If it occurred in
August of 2014, she was actually within the
statute of limitations
THE COURT: I know.
MS. BLAND-TULL: – – when she filed.
THE COURT: I know that. But, –MS.
BLAND-TULL: Okay.
THE COURT: The occurrence is her being told.
But, the action occurred past – – beyond the one
year; but, she didn’t know about it until within
the one year.
[]
THE COURT: So, if she knew in May of ‘13,
then, obviously, it’s too late, correct?
MS. BLAND-TULL: Correct.
Id., at 13:23-15:19; 16:12-14. (emphasis added)
Defendant objected to the applicability of the
discovery rule. Judge Harrington, however, held that
the discovery rule or the “continuing tort” doctrine

App. 20
served to toll Plaintiff’s defamation claim, meaning it
accrued in August of 2014 rather than May of 2013.
Under Judge Harrington’s analysis, Plaintiff’s
Amended Complaint was also timely because her
claims fell within the parameters of her original
Complaint. See Superior Court Transcript, at 31:1532:9. In relevant part, Judge Harrington stated:
THE COURT: I believe the discovery rule
applies. I believe that it relates back. I believe
that from the very, very beginning, she’s been
aggrieved about the actions of – – of – – of the
employer. The employer did – – now, they should
have, could have, would have she would have
known that this was going down, would have
been something she should have known. That’s
a different problem for you in the case. What I
mean by that is sending it to this – –
MS.BLAND-TULL: JPAS.
MR. LEAHY: The JPAS.
THE COURT: J-Pack (sic), yeah. If she’s in the
business, she would have known that was
happening. I think I got her to admit that
somewhere along the way when we were talking
here. But, I’m – – I’m fairly confident that I can
read the complaint to include all tortious acts as
continuing tort. They – they committed a second
tort. You’re allowed to – – to file a complaint for
that basis. I’m comfortable with that. That’s
what I was going to do.
Id. (emphasis added)

App. 21
Despite Defendant’s argument that the defamation
claims were barred by the statute of limitations, Judge
Harrington granted Plaintiff’s Motion for
Reconsideration and reinstated Plaintiff’s defamation
claim. The court explained that his decision was final
and that he would allow Plaintiff to present the
defamation case to the jury at trial. See Superior Court
Transcript, at 36:15-37:3. The court clarified that he
was not “finding up-front that there’s a defamation
claim. I’m simply saying that you can continue to
present this to the jury.” Id. at 41:24-42:2 (emphasis
added).
At the conclusion of oral argument, Judge
Harrington ordered the parties to conduct expedited
discovery on the defamation claim, specifically, the
date of Plaintiff’s discovery of the JPAS report, and
scheduled trial for October 2017. On September 28,
2017, a formal Order was entered by the Superior
Court [Dkt. No. 74], granting Plaintiff’s Motion for
Reconsideration, denying Defendant’s Motion for
Summary Judgment, and requiring Defendant to file
an Amended Answer.2
C. Removal to Federal Court
Following Judge Harrington’s decision to reinstate
Plaintiff’s defamation claim, Defendant removed the
case to this Court on September 25, 2017. [See Dkt. No.

2

Because the September 28, 2017 Order simply formalized Judge
Harrington’s holdings made on the record at oral argument on
September 8, 2017, it is assumed to be binding on the parties, even
though it was not entered until after the case had been removed to
this Court on September 25, 2017.

App. 22
1]. Defendant argued that because Plaintiff’s
defamation claim was based on statements
mandatorily entered into the DoD’s JPAS system,
removal was warranted under the Federal Officer
Removal Statute. Specifically, Defendant contended
that, because it was required to report adverse
information into JPAS, it was entitled to absolute
immunity defense under federal law. Furthermore,
Defendant argued that removal was timely because it
had just learned that the JPAS Report was central to
the defamation claims at the September 8, 2017 oral
argument, a position that Plaintiff does not dispute. On
October 24, 2017, Plaintiff filed a Motion to Remand
[Dkt. No. 5] the case back to state court. On June 20,
2018, this Court held that Defendant was entitled to
the benefit of the Federal Officer Removal Statute and
that removal was timely. [See Dkt. No. 15].
After the Motion for Remand had been resolved,
Defendant filed an Amended Answer [Dkt. Nos. 19, 20]
in accordance with Judge Harrington’s September 28,
2017 Order. Notably, neither Defendant’s Amended
Answer nor the Final Pre-Trial Order [Dkt. No. 30]
included the statute of limitations affirmative defense
to the defamation claim, which Judge Harrington had
already ruled could be presented at trial. Defendant
asserted the statute of limitations affirmative defense,
for the first time following removal, in its Trial Brief,
which was filed less than a month before trial on
February 11, 2019. [See Dkt. No. 38, at 11].
D. Trial and Jury Verdict
During a four-day jury trial, from March 4 through
March 7, 2019, Plaintiff presented her case that

App. 23
Defendant (1) violated NJLAD by terminating Plaintiff
in retaliation for her complaints about discriminatory
treatment by her supervisor, Sue Goldberg, and
(2) defamed Plaintiff through the incident report
entered into the JPAS system. In presenting these
claims to the jury, Plaintiff alleged that MSE’s stated
reason for her termination was pre-textual, and that
MSE actually terminated Plaintiff in retaliation for her
alleged previous complaints (and threats to file an
EEOC complaint) that Sue Goldberg was
discriminating against Plaintiff on the basis of her
Polish national origin. Plaintiff also alleged that the
incident entered into the JPAS system was knowingly
false and defamatory.
At the close of Plaintiff’s case, Defendant moved for
Judgment as a Matter of Law, arguing that Plaintiff’s
defamation claims should not be allowed to proceed to
the jury because (1) they were barred by the statute of
limitations, and (2) the statements in the JPAS Report
were entitled to absolute immunity. The Court reserved
judgment on Defendant’s motion and allowed the jury
to consider the defamation claim. The jury found that
Defendant’s statements in the JPAS Report were false
and defamatory, and awarded Plaintiff $3.5 million in
damages.
Following the announcement of the verdict,
Defendant renewed its Motion for a Judgment as a
Matter of Law pursuant to Fed. R. Civ. P. 50(b), and
moved in the alternative for a New Trial pursuant to
Fed. R. Civ. P. 59(a)(1) or a Remittitur of the jury
award. Meanwhile, Plaintiff requested that the jury
remain empaneled for a trial on punitive damages. In

App. 24
light of the parties scant briefing on the statute of
limitations issue prior to trial, the Court determined
that more briefing was necessary before deciding the
issue. Therefore, pending the outcome of the Motion for
Judgment as a Matter of Law, the Court discharged the
jury and adjourned the trial on punitive damages.
III. LEGAL STANDARD
A motion for judgment as a matter of law may be
granted where “a party has been fully heard on an
issue during a jury trial and the court finds that a
reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that issue.”
Fed. R. Civ. P. 50(a)(1). “While a district court is
permitted to enter judgment as a matter of law at the
conclusion of a trial, when it concludes that the
evidence is legally insufficient, it is not required to do
so. To the contrary, the district courts are, if anything,
encouraged to submit the case to the jury, rather than
granting such motions.” Unitherm Food Sys., Inc. v.
Swift-Eckrich, Inc., 546 U.S. 394, 405 (2006).
If the Court denies or reserves on a motion for
judgment as a matter of law raised during trial, the
moving party may renew that motion post-trial under
Fed. R. Civ. P. 50(b). In order to preserve the right to
renew a motion for judgment as a matter of law, the
moving party must raise a Rule 50(a) motion with
“sufficient specificity to put the [nonmovant] on notice”
before the case is submitted to the jury. Williams v.
Runyon, 130 F.3d 568, 571–72 (3d Cir. 1997). Rule
50(b) provides that, in deciding a 50(b) motion, the
court may: “(1) allow judgment on the verdict, if the
jury returned a verdict; (2) order a new trial; or

App. 25
(3) direct the entry of judgment as a matter of law.”
Fed. R. Civ. P. 50(b).
The standard for deciding the renewed motion is the
same as the standard for deciding the motion made at
trial. Neville Chem. Co. v. Union Carbide, 422 F.2d
1205, 1210 n.5 (3d Cir. 1970), cert. denied, 400 U.S. 826
(1970). A Rule 50 motion “should only be granted if ‘the
record is critically deficient of that minimum quantity
of evidence from which a jury might reasonably afford
relief.” Raiczyk v. Ocean County Veterinary Hospital,
377 F.3d 266, 269 (3d Cir. 2004)(citing Trabal v. Wells
Fargo Armored Serv. Corp., 269 F.3d 243, 249 (3d Cir.
2001)). The key “question is not whether there is
literally no evidence supporting the unsuccessful party,
but whether there is evidence upon which a reasonable
jury could properly have found its verdict.” Johnson v.
Campbell, 332 F.3d 199, 204 (3d Cir. 2003)(emphasis in
original)(quoting Gomez v. Allegheny Health Servs.,
Inc., 71 F.3d 1079, 1083 (3d Cir. 1995)).
“In making this determination, ‘the court may not
weigh the evidence, determine the credibility of the
witnesses, or substitute its version of the facts for the
jury’s version.’” TransWeb, LLC v. 3M Innovative
Properties Co., 16 F. Supp. 3d 385, 391–92 (D.N.J.
2014) (quoting Lightning Lube, Inc. v. Witco Corp., 4
F.3d 1153, 1166 (3d Cir.1993), aff’d, 812 F.3d 1295
(Fed. Cir. 2016)). The Court must “disregard all
evidence favorable to the moving party that the jury is
not required to believe . . . [t]hat is . . . give credence to
the evidence favoring the nonmovant as well as that
evidence supporting the moving party that is
uncontradicted and unimpeached, at least to the extent

App. 26
that that evidence comes from disinterested witnesses.”
Reeves v. Sanderson Plumbing Prod., Inc., 530 U.S.
133, 151 (2000)(citation and internal quotation marks
omitted).
IV. DISCUSSION
In its Motion for Judgment as a Matter of Law,
Defendant argues that the jury verdict should be set
aside because (1) Plaintiff’s defamation claim is barred
by the statute of limitations one-year period from
publication, see Marino v. Westfield Board of
Education, 2016 WL 2901706, at *5 (D.N.J.
2016)(citing N.J.S.A. § 2A:14-3) and (2) the contents of
the JPAS Report are protected by absolute immunity.
In response, Plaintiff argues, first, that “law of the
case” doctrine binds this Court to Judge Harrington’s
decision that the discovery rule applied to Plaintiff’s
defamation claim. Second, Plaintiff argues that
Defendant waived the statute of limitations defense by
failing to assert it in either the Amended Answer or the
Final Pre-Trial Order.
A. Statute of Limitations for Defamation
At trial Plaintiff cited the statements in the JPAS
Report as the lone evidence supporting her defamation
claim.3 This is consistent with what Plaintiff advised
the state court as the basis for her defamation claim. It

3

Although Plaintiff had previously contended that her defamation
claim was supported by comments from McKenna to a prospective
employer, by Plaintiff’s own admission, she was unable to present
any admissible evidence at trial to support this allegation. See
Trial Tr., Mar. 6, 2019, at 642:3-16.

App. 27
is undisputed that the JPAS Report was created by
McKenna on January 15, 2013 and then finalized on
May 1, 2013. Plaintiff, however, did not commence this
action until January 6, 2015, over a year and a half
after McKenna finalized the JPAS Report.
With the JPAS Report’s publication date falling
outside New Jersey’s one-year statute of limitations
period, Plaintiff continues to press the same argument
before this Court as she did before Judge Harrington.
She argues that her claim was nonetheless timely
because she did not find out about the JPAS Report
until August 2014. Thus, Plaintiff asserts the discovery
date of August 2014 means that her defamation claim
was within the one-year statute of limitations when her
original Complaint was filed in January 2015.
Plaintiff’s argument fails before this Court and should
have failed before the Superior Court.
This Court can find no legal precedent to apply the
discovery rule to a defamation claim in New Jersey, as
Plaintiff has argued for some years now. Judge
Harrington previously allowed Plaintiff’s defamation
claim to proceed under a discovery rule theory. The
Third Circuit, however, has explicitly stated that under
New Jersey law, “the ‘discovery rule’ cannot extend the
limitations period for defamation claims.” O’Donnell v.
Simon, 362 F. App’x 300, 305 (3d Cir. 2010)(citing
Lawrence v. Bauer Publ’g & Printing Ltd., 78 N.J. 371,
396 A.2d 569, 570 (1979)). Indeed, New Jersey courts
have repeatedly and consistently held that that the
discovery rule cannot, under any circumstances, toll
defamation actions. See, e.g., Nuwave Inv. Corp. v.
Hyman Beck & Co., 221 N.J. 495, 500–01 (2015)(“The

App. 28
statute’s clear and unqualified language requires all
libel claims to be made within one year of the date of
the publication. That language cannot be reconciled
with the exception proposed by plaintiffs. In declining
to create a judicial discovery rule, we leave amendment
of the statute to the Legislature”); Burr v. Newark
Morning Ledger Co., 2018 WL 1955050, at *2 (N.J.
Super. Ct. App. Div. Apr. 26, 2018)(holding that “recent
unambiguous precedent dictates” that the discovery
rule is inapplicable to defamation claims); Sivells v.
Sam’s Club, 2017 WL 3151246, at *9, n.12 (D.N.J. July
25, 2017)( “As to the discovery rule, it may not apply to
defamation claims at all.”).
Second, Plaintiff cannot use the continuing tort
doctrine to restart the statute of limitations each time
a potential employer views the JPAS Report. As noted
by the Superior Court of New Jersey, Appellate
Division, “[o]ur courts have never applied the
continuing violation doctrine to defamation claims.”
Roberts v. Mintz, 2016 WL 3981128, at *4 (N.J. Super.
Ct. App. Div. July 26, 2016). Furthermore, application
of the continuing tort doctrine under these
circumstances would be at odds with the single
publication rule in defamation cases, which provides
that “a statement posted on the internet is deemed only
to be published once for purposes of the statute of
limitations; the limitations period does not restart
every time the post is viewed.” Id. at *5 (citing
Churchill v. State, 378 N.J.Super. 471, 478, 876 A.2d
311 (App.Div.2005)).
Based on the facts in this case, the publication date
for statute of limitations purposes was May 1, 2013: the

App. 29
date McKenna finalized the JPAS Report within the
system. As such, Plaintiff would have needed to assert
her defamation claims no later than May 1, 2014.
Under the law, these dates cannot be tolled because
Plaintiff only found out about the report in August
2014. In short, Plaintiff’s defamation claim was already
too late when she filed her initial pro se Complaint in
January 2015.
B. “Law of the Case” Doctrine
Alternatively, Plaintiff argues that this Court
should abide by Judge Harrington’s prior ruling
because it has become “law of the case.” This Court
disagrees. The law of the case doctrine is “an
amorphous concept which generally holds that ‘when a
court decides upon a rule of law, that decision should
continue to govern the same issues in subsequent
stages in the same case.’” In re Caterpillar Inc., 67 F.
Supp. 3d 663, 669–70 (D.N.J. 2014)(quoting Arizona v.
California, 460 U.S. 605, 618 (1983)). As explained by
the Supreme Court, however, “[a] court has the power
to revisit prior decisions of its own or of a coordinate
court in any circumstance, although as a rule courts
should be loath to do so in the absence of extraordinary
circumstances such as where the initial decision was
clearly erroneous and would make a manifest
injustice.” Christianson v. Colt Indus. Operating Corp.,
486 U.S. 800, 816 (1988). The Third Circuit has
recognized several “extraordinary circumstances”
which would permit revisiting a prior decision. Such
circumstances exist where (1) new evidence is
available; (2) a supervening new law has been
announced; (3) the order clarifies or corrects an earlier,

App. 30
ambiguous ruling; and (4) where a prior ruling, even if
unambiguous, might lead to an unjust result. See In re
Pharmacy Benefit Managers Antitrust Litig., 582 F.3d
432, 439 (3d Cir.2009). Significantly, “the law of the
case doctrine does not restrict a court’s power but
rather governs its exercise of discretion.” In re City of
Phila. Litig., 158 F.3d 711, 718 (3d Cir. 1998).
The state court allowed Plaintiff’s defamation claim
to proceed on an erroneous application of the discovery
rule. Moreover, the court compounded the error by
ordering that the defamation claim would proceed to
trial. This Court now exercises its discretion to correct
the Superior Court’s clearly erroneous application of
the discovery rule to a defamation claim, which was
precipitated by Plaintiff’s misstatement of the law.
Although the record in the state court action
demonstrates that Defendant objected to the court’s
finding, Defendant did not prevail. The application of
the discovery rule to a defamation claim was “clearly
erroneous.” To permit the verdict to stand under the
law of the case doctrine would result in “manifest
injustice.”
C. Waiver of Defense
Plaintiff argues that Defendant’s statute of
limitations defense should be considered waived
because Defendant failed to include it in either its
Amended Answer or the Final Pre-Trial Order. The
Court finds this argument unpersuasive, but certainly
questions why Defendant failed to raise this

App. 31
affirmative defense earlier.4 Indeed, Defendant could
have moved to amend its Amended Answer to include
the affirmative defense even after the issue had been
raised before this Court at trial. See, e.g., Ajax Enters.
v. Fay, 2007 WL 766335, at *2 (D.N.J. Mar. 7,
2007)(noting that “amendments may be made during
trial, after the close of testimony, or even after
judgment” as long as the nonmoving party will not be
“unfairly disadvantaged or deprived of the opportunity
to present facts or evidence that it would have
offered”). Defendant now states that “MSE should be
permitted leave to amend and its Answer [] to include
the statute of limitations as a defense,” [Dkt. No. 67, at
3-4], but Defendant has never formally requested this
Court’s permission to do so, pursuant to Local Civil
Rule 15.1.
Although it would have been wise for Defendant
amend its Amended Answer, Defendant’s failure to
amend is not dispositive. Under established circuit law
precedent, the failure to include a defense in a
responsive pleading does not automatically result in a
waiver. As previously noted by the Third Circuit,

4

The Court notes that at the time Defendant filed its Amended
Answer (at the direction of Judge Harrington’s September 28, 2017
Order), Defendant presumably believed, based on Judge
Harrington’s prior holding, that it was precluded from asserting
the statute of limitations affirmative defense until trial. To that
end, Judge Harrington’s ruling would have still been binding upon
Defendant, even though the Amended Answer was being filed in
this Court, because “the orders or judgments entered by the state
court prior to removal should be treated as orders or judgments
entered by the district court.” Tehan v. Disability Mgmt. Servs.,
Inc., 111 F. Supp. 2d 542, 547 (D.N.J. 2000).

App. 32
affirmative defenses, which include the statute of
limitations, are not waived if raised at a “pragmatically
sufficient time” with no prejudice to the plaintiff. See
Balter v. United States, 172 F. App’x 401, 403 (3d Cir.
2006)(citing Eddy v. VI Water & Power Authority, 256
F.3d 204, 209 (3d Cir. 2001)). Moreover, “issues tried by
the express or implied consent of the parties are
‘treated in all respects as if they had been raised in the
pleadings.’” Charpentier v. Godsil, 937 F.2d 859, 864
(3d Cir. 1991)(quoting Prinz v. Greate Bay Casino
Corp., 705 F.2d 692, 694 (3d Cir. 1983)). Furthermore,
even though the statute of limitations affirmative
defense was not asserted in the Final Pre-Trial Order,
“[i]t is well established that departure from or
adherence to the pretrial order is a matter peculiarly
within the discretion of the trial judge.” Beissel v.
Pittsburgh & Lake Erie R. Co., 801 F.2d 143, 150 (3d
Cir. 1986)(citing Berroyer v. Hertz, 672 F.2d 334, 338
(3d Cir. 1982)).
As acknowledged by Plaintiff, Defendant has
asserted the statute of limitations defense since the
case’s time in the Superior Court. Plaintiff knew of
Defendant’s statute of limitations objection for almost
two years before trial; Plaintiff cannot now claim to be
prejudiced by the assertion of this defense. Plaintiff
was aware of the statute of limitations defense, but
sought to keep the defamation claim alive based on a
misapplication of the discovery rule. In actuality, by
arguing the law of the case, Plaintiff undermines her
argument that she had insufficient notice of
Defendant’s statute of limitations defense:

App. 33
MS. BLAND-TULL: Yes, your Honor. And,
Judge, I know that your Honor may not be
bound by the previous ruling of the Superior
Court judge in this case, but this has all been
the subject of a motion, and the defendant’s
motion was denied with respect to these issues
in Superior Court. So I understand we are in a
different jurisdiction now, but I would
respectfully argue that there is an issue of the
law of the case that applies to this at this time.
THE COURT: The judge ruled that the statute
of limitations had not transpired on the
defamation claim–
MS. BLAND-TULL: That is correct, Judge.
THE COURT: -- based on the pleading itself.
MS. BLAND-TULL: Correct, Judge.
Trial Tr., Mar. 6, 2019, at 557:11-24 (emphasis added).
On the one hand Plaintiff seeks to prevent
Defendant from raising the statute of limitations
defense (under law of the case) and on the other hand
Plaintiff contends Defendant failed to raise it.
Certainly by raising the statute of limitations defense
at the September 2017 oral argument on the Motion for
Summary Judgment and Motion for Reconsideration,
Defendant put Plaintiff on notice. A defense that was
thoroughly litigated between the parties cannot be said
to have been waived. See Stafford v. E.I. Dupont De
Nemours, 27 F. App’x 137, 140 (3d Cir. 2002)(holding
that when one party met the other’s “statute of
limitations defense head-on in the District Court,

App. 34
without objection. He had a full and fair opportunity to
present his arguments, and he will not now be heard to
raise an objection”); see also Balter, 172 F. App’x at 403
(holding that district court had properly considered
statute of limitations defense even though it had not
been raised in initial motion to dismiss or summary
judgment motion, where “defendants raised the statute
of limitations defense in their objections to the
Magistrate Judge’s first Report and Recommendation,
and again on remand from the District Court in their
answer and second motion to dismiss and for summary
judgment” and “[plaintiff] was afforded an opportunity
to meet that defense and to present his arguments”).
Although Defendant would have been prudent to
raise this issue to the Court before trial, this Court is
somewhat reluctant to fault Defendant for failing to do
so when Judge Harrington had previously ruled the
issue was to be tried before a jury. See Superior Court
Transcript, at 36:24-37:1 (Judge Harrington stating
that he “may not let the jury consider” the defamation
claim, but that he was “not preventing them from
putting together a case to bring to the jury on
defamation”). Indeed, it seems that Defendant operated
under the belief that Judge Harrington’s ruling
prevented it from raising the statute of limitations
defense again until Plaintiff rested her case at trial. To
that end, Defendant repeatedly emphasized to this
Court that it was moving for judgment as a matter of
law on statute of limitations grounds “now that the
record is closed.” See Trial Tr., Mar. 7, 2019, at 681:23684:17 (Defendant arguing that “your Honor is ruling
a closed record in this court. Judge Harrington did not
rule on a Rule 50 motion. The record is now closed,

App. 35
your Honor is not bound by law of the case”). These
factors all lead this Court to conclude that Defendant
interpreted Judge Harrington’s decision to preclude
Defendant from reasserting the statute of limitations
defense until a Rule 50 motion at trial.
In this Court’s final analysis, it would be perverse
to allow Plaintiff to benefit from her own
misstatements of the law that caused this legal debacle
in the first place. The law could not be clearer: there is
no discovery rule exception for defamation claims. The
party who was prejudiced was Defendant who was
forced to litigate a time-barred claim for two additional
years.5 Therefore, this Court exercises its discretion to
rule upon Defendant’s statute of limitations affirmative
defense.
D. Absolute Immunity
Throughout the course of this litigation, Defendant
has leaned heavily on an absolute immunity defense to
the defamation claim. Specifically, Defendant argued
that the defamation claim fails because MSE is entitled
to absolute immunity for statements made in the JPAS
Report. As noted by Defendant, “courts have granted
official immunity to private actors in defamation
actions resulting from reports prepared by private
industry for government agencies.” Gulati v.
Zuckerman, 723 F. Supp. 353, 356 (E.D. Pa.
1989)(internal citations omitted). To this point, MSE
5

With the benefit of hindsight, of course it is easy to criticize
Defendant for not raising the statute of limitations defense before
this Court well before trial. However, the Court sees little point in
doing so now.

App. 36
argues that government regulations obligated MSE to
report “adverse information” about Plaintiff’s fitness to
hold a security clearance, and that it had no choice but
to put the relevant information in the JPAS Report.
For that reason, Defendant claims that any
information provided in the JPAS Report is entirely
privileged. Perplexingly, Defendant viewed a finding of
absolute immunity as a forgone conclusion. This Court,
however, disagrees.
Without binding support from the Third Circuit,
Defendant cites to the Fourth Circuit’s decision in
Becker v. Philco Corp., 372 F.2d 771 (4th Cir. 1967). In
Becker, two individuals sued their former employer, a
defense contractor, for submitting an allegedly
defamatory report to DoD officials, under regulations
which required the contractor to submit a report “of
any loss, compromise, or suspected compromise of
classified information.” Id. at 773. Ultimately, the
Fourth Circuit held that the employer was absolutely
immune from liability for the alleged defamation in the
report. The Fourth Circuit stated:
“[T]he company has no discretion and is
mandatorily ordered to report the suspicion
immediately. There is no question but that the
system of reporting was valid. The obligation
could scarcely be couched in more imperious or
exacting language. It embraces both true and
false accusations, both substantial and
insubstantial suggestions, perhaps
encompassing even rumors. It demands
investigation of them by the company and a
report of it to the Defense Department. That is

App. 37
precisely what Philco did. Faithful to the
contract, it could have done no less.”
Id. at 774 (emphasis added). Although the Becker
decision sets a precedent for absolute immunity, even
when the information reported includes rumors, this
Court finds that the regulation at issue in this case is
substantially different from the one examined by the
Becker court over fifty years ago. As outlined in Section
3 of the National Industrial Security Program
Operating Manual, titled “Reporting Requirements,”
MSE is bound to abide by the following guidelines:
1-302 Reports to be Submitted to the CSA
a. Adverse Information. Contractors shall
report adverse information coming to their
attention concerning any of their cleared
employees. Reports based on rumor or innuendo
should not be made. The subsequent termination
of employment of an employee does not obviate
the requirement to submit this report. If the
individual is employed on a Federal installation,
the contractor shall furnish a copy of the report
and its final disposition to the commander or
head of the installation.
NOTE: In two court cases, Becker v. Philco and
Taglia v. Philco (389 U.S. 979, 88 S.Ct. 408, 19
L.Ed.2d 473), the U.S. Court of Appeals for the
4th Circuit decided on February 6, 1967, that a
contractor is not liable for defamation of an
employee because of reports made to the
Government under the requirements of this
Manual and its previous versions.

App. 38
NISPOM, Section 3, at 1-302(a)(emphasis added). As
further clarified in Appendix C of NISPOM, “Adverse
Information” is defined as “any information that
adversely reflects on the integrity or character of a
cleared employee, that suggests that his or her ability
to safeguard classified information may be impaired, or
that his or her access to classified information clearly
may not be in the best interests of national security.”
Whereas the Becker court dealt with a reporting
requirement that embraced “both true and false
accusations,” NISPOM clearly instructs not to report
information “based on rumor or innuendo.” Therefore,
to the extent reports within JPAS are immune from
suit, an issue this Court need not decide, that
immunity is qualified, rather than absolute: it does not
cover reports based on rumor or innuendo. To that end,
whether a report is based on rumor or innuendo would
be a factual finding for a jury.6
Following the verdict, this Court asked the parties
if they wished to ask the jury a special interrogatory
about this issue. Unfortunately, as outlined in the
exchange below, the parties precluded the Court from

6

The Court notes that Defendant relies upon Mission1st Grp., Inc.
v. Filak, 2010 WL 4974549, at *2 (D.N.J. Dec. 2, 2010) to supports
its absolute immunity defense. Indeed, in that case, the court
found that an allegedly false report about a cleared employee was
entitled to absolute privilege because it was made pursuant to a
governmentally imposed duty. Id. However, this Court declines to
follow that decision, as it did not consider whether the allegedly
false report was premised upon “rumor or innuendo,” as instructed
by the plain text of NISPOM.

App. 39
asking the jury if they found that the JPAS Report was
based on rumor or innuendo:
THE COURT: The only question is that the
legal -- let me just -- I want to make sure I’m not
excusing the jury and then regret it later. The
legal argument that the defendant is making is
that they have a legal obligation to report a
threat. Right?
MR. LEAHY: Correct, your Honor.
THE COURT: If the jury found that a threat
was never made does your legal position stand?
And should I ask the jury whether they found -should I issue a special interrogatory asking
them whether or not they found that a threat
was a made?
(Short pause.)
MR. LEAHY: I was -- what we have just
discussed, your Honor, is I don’t know that it
would change the defense because -THE COURT: Because?
MR. LEAHY: -- as you said, anything that is
reported to JPAS is absolutely privileged. At the
same time if they found that the threat was -- if
they found that a threat was in the made -THE COURT: But if it were false -- if they
found that a threat was never made and MSE
made it up that would not be privileged, would
it?

App. 40
MR. LEAHY: It would still be privileged, your
Honor, based on the Mission First case. I mean,
the privilege is absolute and holds regardless of
whether the information was rightly reported.
And that’s quoting from Mission First which was
quoting from Becker. So that is the law of the
land, your Honor.
THE COURT: If it was made reckless does that
matter?
MR. LEAHY: It does not matter, your Honor, it
is absolute privilege.
MS. BLAND-TULL: Your Honor, the NISPOM
regulations upon which the case is based
specifically say that the immunity does not
apply to rumor, innuendo and -- and I forget the
other language, but language to the effect of
statements that have not been corroborated or
don’t have a trustworthiness.
THE COURT: So do I present the issue of
qualified immunity to the jury? Is it not a jury’s
finding whether or not it was -MR. LEAHY: It is not, your Honor, because this
is not a qualified immunity issue, this is
absolute privilege issue and so that is a strict
legal one, not a jury issue.
THE COURT: Well, I guess what I would say is
the following: If the parties are incorrect and
there should be a question that I should be
posing to the jury and I find that my failure to
pose the question to the jury prevents me from

App. 41
deciding the issue of this privilege and I have to
order a new trial, I will. I just am not going to
lose the jury -- so I guess the parties need to be
confident about it. Neither one of you want me to
issue a special interrogatory, I’m just cautiously
saying to the parties that if in the end I
determine I should have and I haven’t it would
necessitate a new trial. But that will be what it
will be I guess.
Trial Tr., Mar. 7, 2019, at 784:16-786:20.
Although the jury’s verdict on the defamation claim
indicates that the jury found that information in the
JPAS Report was false, it does not tell the Court
whether the jury viewed the information as “based on
rumor or innuendo.” There are many reasons why the
jury could have found that Defendant’s report was
false, without being based on rumor or innuendo. For
example, the jury could have believed that the JPAS
Report contained false information about Plaintiff, but
that Defendant had a good faith reason for mistakenly
accepting the information as factual. However, this
Court cannot speculate as to the jury’s state of mind.
With the parties unwilling to send a special
interrogatory to the jury, this Court is unable to reach
that issue. If this Court did not set aside the
defamation verdict on statute of limitations grounds, a
new trial would have been necessary to properly
address the immunity issue. Therefore, in accordance
with Fed. R. Civ. P. 50(c)(1), the Court will
conditionally grant Defendant’s alternative motion for
a new trial.

App. 42
V. CONCLUSION
For the foregoing reasons, Defendant’s Motion for
Judgment as a Matter of Law shall be GRANTED and
the jury verdict on the defamation claim will be set
aside. The Court will direct the entry of (1) judgment
on the jury’s verdict on the NJLAD retaliation claim
and (2) judgment as a matter of law in favor of
Defendant on the defamation claim.
DATED: July 9, 2019
s/Renee Marie Bumb
RENÉE MARIE BUMB
United States District Judge

App. 43
______________
APPENDIX C
[Dkt. No. 60]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
Civil No. 17-7425 (RMB/JS)
[Filed July 9, 2019]
________________________________
ANNA BARAN,
)
)
Plaintiff,
)
)
v.
)
)
ASRC FEDERAL, MISSION
)
SOLUTIONS, ROSE WELLS,
)
FRANCIS MCKENNA,
)
SUSAN GOLDBERG,
)
)
Defendants.
)
________________________________ )
ORDER
On March 7, 2019, a jury reached a verdict that
Defendant Mission Solutions, LLC (“Defendant” or
“MSE”) owed Plaintiff Anna Baran (“Plaintiff”) $3.5
million in compensatory damages for defaming her by
falsely reporting that she had threatened workplace
violence. Now, this matter comes before the Court upon

App. 44
Defendant’s Renewed Motion for Judgment as a Matter
of Law pursuant to Fed. R. Civ. P. 50(b) [Dkt. No. 60],
and an alternative Motion for a New Trial pursuant to
Fed. R. Civ. P. 59(a)(1) or a Remittitur of the Jury
Award.
For the reasons set forth in the accompanying
Opinion of the same date,
IT IS on this 9th day of July 2019, hereby
ORDERED that:
(1)

Defendant’s Renewed Motion for Judgment
as a Matter of Law [Dkt. No. 60] is
GRANTED; and

(2)

the jury’s verdict on Plaintiff’s defamation
claims (as addressed in questions 4 and 5 of
the Jury Verdict Sheet [Dkt. Nos. 65, 66]) is
SET ASIDE; and

(3)

the Clerk of the Court is directed to ENTER
JUDGMENT AS A MATTER OF LAW in
favor of Defendant on Plaintiff’s defamation
claims; and

(4)

the Clerk of the Court is directed to ENTER
JUDGMENT in favor of Defendant on the
NJLAD retaliation claim, pursuant to the
jury’s verdict (as addressed in questions 1
and 2 of the Jury Verdict Sheet [Dkt. Nos.
65, 66]); and

(5)

in accordance with Fed. R. Civ. P. 50(c)(1),
Defendant’s alternative Motion for a New

App. 45
Trial is CONDITIONALLY GRANTED;
and
(6)

Defendant’s alternative Motion for
Remittitur of the Jury Award is DENIED
AS MOOT; and

(7)

the adjourned trial on punitive damages is
CANCELLED; and

(8)

the Clerk of the Court is directed to CLOSE
this case.
s/Renee Marie Bumb
RENÉE MARIE BUMB
United States District Judge

App. 46

APPENDIX D
[Dkt. No. 13]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
Civil No. 17-7425(RMB/JS)
[Filed June 20, 2018]
_____________________________
ANNA BARAN,
)
)
Plaintiff,
)
)
v.
)
)
ASRC FEDERAL MISSION
)
SOLUTIONS, ROSE WELLS, )
FRANCES McKENNA, SUE
)
GOLDBERG, and ABC
)
BUSINESS ENTITIES 1-100, )
)
Defendants.
)
_____________________________ )
OPINION
APPEARANCES:
Latonya N. Bland-Tull, Esq.
HAGERTY & BLAND-TULL LAW, LLC
Moorestown Times Square

App. 47
523 Haddon Avenue
Collingswood, NJ 08108
Counsel for Plaintiff
Alexa Joy Laborda Nelson, Esq.
LITTLER MENDELSON PC
Three Parkway
1601 Cherry Street, Suite 1400
Philadelphia, PA 19102
-andWilliam J. Leahy, Esq.
LITTLER MENDELSON, PC
Three Parkway
1601 Cherry Street, Suite 1400
Philadelphia, PA 19102
Counsel for Defendants
BUMB, United States District Judge:
This matter comes before the Court upon the filing
of a motion to remand this matter to the Superior
Court of New Jersey, Camden County and for payment
of costs and attorney’s fees, by Plaintiff Anna Baran
(the “Plaintiff”). For the reasons stated below,
Plaintiff’s motion will be DENIED.1
I. Factual and Procedural Background
Plaintiff Anna Baran is a former employee of
Defendant Mission Solutions, LLC (“MSE”)(incorrectly
pled as ASRC Federal Mission Solutions), a defense
1

Because the Court denies Plaintiff’s motion to remand on the
merits, it will also deny, without addressing, Plaintiff’s motion for
costs and attorneys fees.

App. 48
contractor that supplies systems engineering, software
engineering, integration services and products for
mission-critical defense systems. Am. Compl. ¶ 3,
Notice of Removal, Ex. C. This action arises from
Plaintiff’s termination from MSE in 2013 as the result
of threatening comments Plaintiff allegedly made to
Rose Wells, a software engineer manager at MSE.
Wells reported both to the police and to Francis
McKenna, a member of MSE security, that Plaintiff
had threatened to bring a gun to work and shoot
certain MSE employees. In addition to her unlawful
termination, Plaintiff alleges, McKenna continued to
disparage Plaintiff to potential employers, preventing
her from finding new full-time employment by
indicating to such employers that a “false report”
placed on Plaintiff’s “clearance record was true, that it
was bad, and that [P]laintiff . . . [would] not be able to
obtain clearance based on that report.” Am. Compl.
¶ 43. As it turns out, the “report” which McKenna was
discussing was entered into the United States
Department of Defense’s (“DOD”) Joint Personnel
Adjudication System (“JPAS”), which functions as the
DOD’s system of record for security clearance
processing.
This case comes to the Court under somewhat
unusual procedural circumstances. It had been pending
in state court for almost three years and was set for a
trial when MSE removed it pursuant to 28 U.S.C.
§ 1442 (the “Federal Officer Removal Statute”). At
issue is whether MSE is entitled to the benefit of that
statute and, if so, at what point in the state court
proceedings it could ascertain that the statute applied.
Specifically, the resolution of this motion turns on the

App. 49
date that MSE could first have ascertained that
Plaintiff was bringing a defamation claim against it not
only on the basis of comments made by McKenna or
other unnamed MSE employees, but based on the
report entered into JPAS.
On January 6, 2015, Plaintiff initiated this action
by filing a pro se Complaint against MSE and Wells in
the Superior Court of New Jersey, Law Division,
Burlington County (Docket No. L-53-15). Plaintiff’s
initial pro se Complaint was vague and the details
included therein were sparse, but it appears that
Plaintiff alleged that Wells had made false statements
concerning Plaintiff’s intention to “harm others” with
firearms, costing Plaintiff her job. See Jan. 6, 2015
Compl., Notice of Removal Ex. A. Plaintiff brought
claims for (1) negligence; (2) malicious prosecution;
(3) intentional and negligent infliction of emotional
distress; (4) defamation and slander; (5) tortious
interference; and (6) retaliation. See id.
Plaintiff’s pro se Complaint was dismissed, without
prejudice, on April 24, 2015, subject to three conditions:
(1) Plaintiff was required to obtain counsel by July 1,
2015, “with the understanding that she may have a
claim for unlawful termination”; (2) MSE was required
to “issue a neutral employment reference”; and (3) MSE
was required to “use best efforts to assist Plaintiff in
obtaining a security clearance, to the extent possible.”
Notice of Removal ¶ 3, Ex. B.
On June 27, 2015, while the case was still
dismissed, Plaintiff sent a letter to the state court
informing the court that Plaintiff was having a difficult
time obtaining counsel. June 27, 2015 Letter,

App. 50
Certification of LaTonya Bland-Tull, Ex. C. In her
letter, Plaintiff also indicated that she had “objective
evidence that . . . [MSE] continue[d] to slander” her. Id.
Specifically, she claimed that she lost two job
opportunities because the company “verbally
slander[ed]” her and “put false information on . . . [her]
career record.” Id. She claimed to have spoken to
McKenna, who told her that “he would correct the
statement but then backed out of the system because
he realized that it would make the company legally
liable.” Id.
The state court treated Plaintiff’s pro se letter as a
motion to enforce the conditions in the court’s April 24,
2015 dismissal order. On August 12, 2015, it granted
Plaintiff’s request and ordered MSE’s HR Department
to issue Plaintiff a “neutral employment reference,”
without editorialization; provide neutral information if
contacted about Plaintiff’s future attempts to obtain a
security clearance; and provide Plaintiff with a copy of
her “entire personnel file.” Order Granting Plaintiff’s
Motion to Enforce, Certification of LaTonya Bland-Tull,
Ex. D.
On October 6, 2016, the state court reinstated
Plaintiff’s Complaint and granted her leave to file an
amended complaint. October 18, 2016, having obtained
counsel, Plaintiff filed an Amended Complaint against
MSE, Wells, McKenna, Sue Goldberg, who at one time
was Plaintiff’s supervisor at MSE, and “ABC Business
Entities 1-100.” See Notice of Removal, Ex. C. Two of
the four counts in Plaintiff’s Amended Complaint are
relevant to this motion: (1) Count One for defamation,
libel, and slander, and (2) Count Two for defamation,

App. 51
libel, and slander per se. In these Counts, Plaintiff
alleges that McKenna2, or another unnamed MSE
employee, made slanderous statements about Plaintiff
and about the nature of reports filed on Plaintiff’s
“record.” Specifically, Plaintiff alleges that McKenna or
another MSE employee spoke by phone with employees
from L-3 Communications, and that as a result of
statements made about Plaintiff during those
conversations, L-3 refused to hire Plaintiff.
On February 10, 2017, Defendants sent their first
set of interrogatories to Plaintiff. Interrogatory number
10 asked Plaintiff to identify “each communication that
. . . [she] contend[ed] support[ed] . . . [her] claim(s) for
defamation.” For each of these communications,
interrogatory 10 asked Plaintiff to identify (1) who
made the statement; (2) when the statement was made;
(3) to whom the statement was communicated; and
(4) any witnesses to the communication. On March 6,
2017, however, the state court dismissed Plaintiff’s
defamation, libel, and slander (including defamation,
libel, and slander per se) claims as untimely. The state
court’s dismissal was without prejudice, and the court
granted Plaintiff leave to amend. Plaintiff did not,
however, amend her Amended Complaint.
On April 28, 2017, Plaintiff submitted her responses
to Defendant’s first set of interrogatories. In response
to interrogatory number 10, Plaintiff provided:
McKenna admitted that in August 2014, he
represented to employees of L3 Communications
2

It does not appear that Plaintiff ever served McKenna with
process.

App. 52
that Plaintiff had threatened someone at work.
McKenna admitted that he discussed a report
that he created in JPAS database with L3
Communications. This report alleged that
Plaintiff owns firearms.
See Pl.’s Answer to Interrogatories, Interr. 10, Cert. of
LaTonya Bland-Tull, Esq., Ex. H. By this time, all of
Plaintiff’s defamation claims had been dismissed and
the matter appeared to be moving forward as one for
retaliation under the New Jersey Law Against
Discrimination, N.J.S.A. 10:5-12(d) (“NJLAD”).
On September 8, 2017, the state court held oral
argument on a motion for summary judgment filed by
Wells seeking the dismissal of the NJLAD claim
against her and a motion filed by Plaintiff seeking
reconsideration of the dismissal of her defamation
claims. At oral argument, the court granted Wells’
motion for summary judgment, dismissing Wells from
the case.
More relevant here, the court also granted
Plaintiff’s motion for reconsideration, restoring her
defamation claims. As the state court’s dismissal was
based on the timeliness of those claims, the court
inquired into the dates of the communications on which
Plaintiff’s defamation allegations are based. In
response to a question from the court, MSE’s counsel
indicated that it was MSE’s belief that Plaintiff’s
defamation claims were premised entirely on
McKenna’s communication with Plaintiff’s prospective
employer, L3. Tr. Of Sep. 8, 2017 Oral Arg. 12:20-24,
Notice of Removal Ex. E. Notably, Plaintiff’s counsel
disputed that characterization, arguing that Plaintiff’s

App. 53
defamation claims were based, in part, on McKenna’s
conversation with L3, but were also based on two JPAS
entries related to Plaintiff; one in January of 2013 and
one in May of 2014. Plaintiff further argued that she
did not discover these JPAS entries until being alerted
to them by L3 in August of 2014. The state court
granted Plaintiff’s motion for reconsideration and ruled
that Plaintiff’s defamation claims could proceed to trial.
Because Defendant had prepared only for a NJLAD
trial, however, the court granted it additional time to
conduct depositions of witnesses concerning Plaintiff’s
defamation claims.
On September 25, 2017, MSE removed the action to
this Court pursuant to 28 U.S.C. § 1442. After the
parties submitted premotion letters in accordance with
this Court’s Individual Rules and Procedures, Plaintiff
timely filed the presently pending motion for remand
on November 8, 2017, arguing that removal was
improper and untimely.
II. Discussion
The Court will first address whether Defendant’s
removal of this case was proper, before turning to the
issue of whether that removal was timely.
A. Defendant’s Removal of this Action was
Proper
As noted above, MSE removed this case to federal
court pursuant to 28 U.S.C. § 1442, the “Federal Officer
Removal Statute,” which provides in relevant part:
(a) A civil action or criminal prosecution that is
commenced in a State court and that is against

App. 54
or directed to any of the following may be
removed by them to the district court of the
United States for the district and division
embracing the place wherein it is pending:
(1) The United States or any agency thereof or
any officer (or any person acting under that
officer) of the United States or of any agency
thereof, in an official or individual capacity, for
or relating to any act under color of such office
....
28 U.S.C. § 1442(a)(1).
This statute exists to “protect[] officers of the
federal government,” and those acting under them,
“from interference by litigation in state court while
those officers [and those under their charge] are trying
to carry out their duties.” Papp v. Fore-Kast Sales Co.,
842 F.3d 805, 811 (3d Cir. 2016)(citing Willingham v.
Morgan, 395 U.S. 402, 405–06 (1969)); see also Watson
v. Philip Morris Companies, Inc., 551 U.S. 142, 152
(2007) (citations omitted)(describing purpose of Federal
Officer Removal Statute as including providing a
federal forum in which to hear federal immunity
defenses). “Section 1442(a) is an exception to the wellpleaded complaint rule, under which (absent diversity)
a defendant may not remove a case to federal court
unless the plaintiff’s complaint establishes that the
case arises under federal law.” Id. (quoting Kircher v.
Putnam Funds Trust, 547 U.S. 633, 644 n.12 (2006)
(internal quotation marks and citation omitted)). In
accordance with the important purposes it serves,
“[u]nlike the general removal statute, the federal
officer removal statute is to be ‘broadly construed’ in

App. 55
favor of a federal forum.” Id. at 811-12 (citations
omitted).
The party removing an action to federal court bears
the burden of proving that subject matter jurisdiction
exists and that removal is proper. See Boyer v. SnapOn Tools Corp., 913 F.2d 108, 111 (3d Cir. 1990). In
order to remove a case under § 1442(a)(1), a defendant
must meet four requirements:
(1) [the defendant] is a “person” within the
meaning of the statute; (2) the [plaintiff’s] claims
are based upon the [defendant’s] conduct “acting
under” the United States, its agencies, or its
officers; (3) the [plaintiff’s] claims against [the
defendant] are “for, or relating to” an act under
color of federal office; and (4) [the defendant]
raises a colorable federal defense to the
[plaintiff’s] claims.
Id. at 812 (quoting In re Commonwealth’s Motion to
Appoint Counsel Against or Directed to Def. Ass’n of
Philadelphia, 790 F.3d 457, 467 (3d Cir. 2015), as
amended (June 16, 2015)); Feidt v. Owens Corning
Fiberglass Corp., 153 F.3d 124, 127 (3d Cir.
1998)((citing Mesa v. California, 489 U.S. 121, 129
(1989)).
Plaintiff argues only that Defendants cannot prove
their federal defense. Despite Plaintiff’s apparent
concession of three of the four factors required for the
Federal Officer Removal Statute to apply, this Court
has an obligation to satisfy itself of its subject matter
jurisdiction. See Liberty Mut. Ins. Co. v. Ward
Trucking Corp., 48 F.3d 742, 750 (3d Cir.1995); see also

App. 56
FED R. CIV. P. 12(h); 28 U.S.C. § 1447(c). As such, the
Court will address each of the four factors.
i. MSE is a “Person” Within the Meaning of
the Federal Officer Removal Statute
Plaintiff has not disputed that MSE is a “person” as
that term applies to the Federal Officer Removal
Statute. § 1442(a)(1) does not itself define the term
“person.” As such, courts, including the Third Circuit,
have looked to § 1 of Title I of the United States Code,
which defines “person” to “include corporations,
companies, associations, firms, partnerships, societies,
and joint stock companies, as well as individuals.” See,
e.g., Papp, 842 F.3d at 812. As an LLC, MSE falls
within this definition.
ii. MSE was “Acting Under” a Federal
Officer or Agency
Plaintiff does not dispute that MSE was “acting
under” a federal officer or agency. “The ‘acting under’
requirement, like the federal removal statute overall,
is to be ‘liberally construe[d]’ to cover actions that
involve “an effort to assist, or to help carry out,” a
federal officer or agency’s duties or tasks. Papp, 842 F.
3d at 812 (quoting Ruppel v. CBS Corp., 701 F.3d 1176,
1181 (7th Cir. 2012) (quoting Watson 551 U.S. 142,
152, (2007)); see also Defender Ass’n,790 F.3d at 468
(construing “acting under” liberally). Although liberally
construed, “acting under” a federal officer or agency
requires more than simply complying with the terms of
a law or regulation. Watson, 551 U.S. at 152.
In other words, where a private actor seeks the
benefit of the Federal Officer removal statute, there

App. 57
must be some relationship between the government
and the private actor beyond that of
“regulator/regulated.” Id. at 157. One example of such
a relationship is where “the federal government uses a
private corporation”—a contractor—“to achieve an end
it would have otherwise used its own agents to
complete.” Papp, 842 F.3d at 812 (citations omitted);
see also Defender Ass’n, 790 F.3d at 468–70 (discussing
different ways in which an entity might “act under” a
federal officer).
MSE “acted under” the Secretary of Defense when
it filed reports in JPAS about Plaintiff, an employee
with security clearance. See Stephenson v. Nassif, 160
F. Supp. 3d 884, 887-89 (E.D. Va. 2015). The National
Industrial Security Program Operating Manual
(“NISPOM”), issued by the Secretary of Defense
pursuant to Executive Order3, requires contractors
with access to classified information to report in JPAS
“adverse information coming to their attention
concerning any of their cleared employees.” See
NISPOM §1-302(a). Adverse information that defense
contractors are required to report includes “any
information that negatively reflects on the integrity or
character of a cleared employee.” This regime requires
defense contractors to do more than simply behave in
accordance with the law. “The plain language of
NISPOM § 1-302(a) is mandatory, and by defining
“adverse information” broadly the Department of

3

Exec. Order No. 12,829, 58 Fed. Reg. 3,479 (Jan. 6, 1993).

App. 58
Defense create[d] a mandatory duty to report broadly.”
Stephenson, 160 F. Supp. 3d at 889.4
This reporting structure is the means through
which the DOD requires defense contractors to “assist”
it in, or help it to “carry out,” its duty to protect
classified information. Watson, 551 U.S. at 152.
Without some mandatory reporting duty such as that
created by NISPOM, the DOD would not be able to
contract out classified work, and “would need to carry
out all activities relating to the protection of classified
4

Plaintiff argues that this reporting duty excludes “reports based
on rumor or innuendo,” and that accordingly MSE could not have
been “acting under” the DOD because the reports about her were
not true. This type of on the merits attack “illustrates precisely
why federal officer jurisdiction is appropriate here.” Stephenson,
160 F. Supp. 3d at 889.
If the basis for a federal contractor’s decision to make a
mandatory report under NISPOM § 1-302(a) is going to be
open to attack on state tort law grounds, then in the
absence of a federal forum the contractors subject to
NISPOM might elect not to report in the first instance,
which would ‘disable federal officials from taking
necessary action’ to safeguard classified information . . .
Accordingly, application of federal officer jurisdiction to
the dispute at hand is consistent with the congressional
policy underlying § 1442(a)(1), namely protecting the
execution of federal functions in the states by ensuring
that persons engaged in federal functions will have access
to a federal forum in which to raise federal defenses.
Plaintiff’s argument essentially creates a defamation
exception to federal officer removal by requiring a
defendant to prove the truth of his statements before
removal is appropriate. There is no basis to conclude that
§ 1442(a)(1) contemplates or allows such an exception.
Id. at 889 (internal citations omitted).

App. 59
information internally.” Stephenson, 160 F. Supp. 3d at
889. This type of relationship falls squarely within the
bounds of the “acting under” requirement of the
Federal Officer Removal Statute.
iii.

Plaintiff’s Defamation Claim Rests on
Acts Done “For of Relating to” a
Federal Officer or Agency

“[I]n order to meet the ‘for or relating to’
requirement, ‘it is sufficient for there to be a connection
or association between the act in question and the
federal office.’” Papp, 842 F.3d at 813 (quoting
Defender Ass’n, 790 F.3d at 471 (internal quotation
marks omitted)). This requirement is met here.
Plaintiff’s defamation claims are based, at least in part,
on reports Defendant or its employees entered into
JPAS; actions which, as noted above, are required of
defense contractors under NISPOM.
iv. MSE Raises a “Colorable” Federal Defense
Finally, MSE must raise a “colorable” federal
defense to Plaintiff’s defamation claims. A “colorable”
defense is one that is “legitimate and [could]
reasonably be asserted, given the facts presented and
the current law.” Papp, 842 F.3d at 815 (quoting
Colorable Claim, Black’s Law Dictionary (10th ed.
2014)); see also Hagen v. Benjamin Foster Co., 739
F.Supp. 2d 770, 782–83 (E.D. Pa. 2010) (“[A] defense is
colorable for purposes of determining jurisdiction under
Section 1442(a)(1) if the defendant asserting it
identifies facts which, viewed in the light most
favorable to the defendant, would establish a complete
defense at trial.”). MSE asserts that any report

App. 60
submited by it to JPAS is absolutely privileged, citing
Mission1st Group, Inc. v. Filak, Civil Action No. 093758, 2010 WL 4974549, *2 (D.N.J. Dec. 2, 2010).
The court in Filak recognized the principle, set forth
in Becker v. Philco Corp., 372 F.2d 771, 775-76 (4th
Cir.1967), that a government contractor is not liable for
defamation of an employee because of reports made to
the government pursuant to a governmentally imposed
duty. Filak, 2010 WL 4974549, at *2. In its notice of
removal, MSE avers that (1) it is a government
contractor that (2) made a report to the government
(3) pursuant to a duty, and that Plaintiff now seeks to
hold it liable for that report. See Notice of Removal
¶ 10-17. Viewed in the light most favorable to
Defendant, this is enough to raise a colorable defense.
Having been satisfied that Defendant has made a
sufficient showing that it is entitled to the benefit of
the Federal Officer Removal Statute, the Court now
turns to the issue of timeliness.
B. Defendant’s Removal of this Action was
Timely
As the parties agree, nothing in Plaintiff’s initial
Complaint indicated that this case was removable on
the basis of the Federal Officer Removal Statute. Thus,
the timeliness of removal is determined pursuant to 28
U.S.C. § 1446(b)(2)(3), which provides that
[e]xcept as provided in subsection (c)[governing
removal based upon diversity jurisdiction], if the
case stated by the initial pleading is not
removable, a notice of removal may be filed
within 30 days after receipt by the defendant,

App. 61
through service or otherwise, of a copy of an
amended pleading, motion, order or other paper
from which it may first be ascertained that the
case is one which is or has become removable.
(emphasis added). Accordingly, in order to trigger the
thirty day clock for removal, MSE must have received,
“through service or otherwise,” an amended pleading,
motion, order, or “other paper,” indicating that the case
is removable. Moreover, with regard to written
documents submitted to the court or “court related
documents,” the “relevant test is not what the
defendants purportedly knew, but what the[]
documents said.” Foster v. Mut. Fire, Marine & Inland
Ins. Co., 986 F.2d 48, 54 (3d Cir. 1993), rev’d on other
grounds, Murphy Bros., Inc. v. Michetti Pipe Stringing,
Inc., 526 U.S. 344 (1999) (noting that we look only to
the “four corners of the pleading” to see if it “informs
the reader, to a substantial degree of specificity, that
all elements of federal jurisdiction are present,” and
ask “not what the defendant knew, but what the
relevant document said.”))
MSE argues that the clock for removal started
running on September 8, 2017, at an oral argument
before the state court on motions for summary
judgment and reconsideration, and that as such its
September 25, 2017 removal was timely. Plaintiff
contends that there were at least four triggering events
prior to September 8, 2017: (1) June 25, 2015 when
Plaintiff, then proceeding pro se, sent a letter to the
state court, a copy of which was sent to MSE;
(2) October 6, 2016, the date the matter was reinstated
to the state court’s active docket; (3) October 18, 2016,

App. 62
the date on which the Amended Complaint was filed; or
(4) May 15, 2017, the latest date on which MSE may
have received Plaintiff’s responses to interrogatories,
specifically its response to interrogatory 10, which
mentions JPAS. The Court is persuaded that
September 8, 2017 was the first occasion on which MSE
could ascertain that it was being sued for entering a
report into JPAS.
Plaintiff’s arguments fail for two reasons. First,
Plaintiff’s defamation claims were dismissed both when
she sent the June 25, 2015 letter5, and when MSE
received Plaintiff’s responses to interrogatories. On
June 25, 2015, Plaintiff’s entire pro se Complaint had
been dismissed subject to certain conditions and she
was instructed by the state court to retain counsel
“with the understanding that she may have a claim for
unlawful termination.” April 24, 2015 Order Granting
Dismissal, Notice of Removal Ex. B. Likewise, when
MSE received Plaintiff’s responses to interrogatories,
the defamation claims in Plaintiff’s Amended
Complaint had been dismissed, and the parties were
proceeding on an NJLAD claim. Plaintiff’s counsel
acknowledged as much on the record at the September
8, 2017 oral argument. In response to the Judge asking
“we have a . . . tort case and an [sic] LAD case, isn’t
that true?,” counsel responded that “[c]urrently, the
only issue in this case is retaliation, discrimination.” It

5

For the purposes of this discussion, the Court assumes that
Plaintiff’s letter was the sort of “other paper” recognized by § 1446.
Because the Court finds that the letter did not provide sufficient
information to put Plaintiff on notice of its federal defense,
however, the Court need not decide this issue.

App. 63
is difficult to—and this Court will not—say that
Defendant should have ascertained that it may have
had a federal defense to a defamation claim that had
been dismissed in a case that was proceeding, and
appeared set to proceed, under an employment
discrimination theory only, and that Plaintiff should
have been required to remove on that basis.
Second, while it could be ascertained from the June
25, 2017 letter, the Amended Complaint, and Plaintiff’s
response to interrogatory 10 that Plaintiff was
complaining of McKenna’s statements to Plaintiff’s
prospective employers about the status and merits of a
JPAS report, it was not clear that Plaintiff was
bringing defamation claims against MSE or anyone
else for the entry of the report itself. This is an
important distinction, as MSE argues that the JPAS
reports themselves, as opposed to statements made
about the reports to non-government entities, are
privileged. It was not until the September 8, 2017 oral
argument that it became ascertainable that Plaintiff
was alleging defamation against MSE for the entry of
JPAS reports. This is the allegedly privileged conduct
for which MSE raises a colorable federal defense, and
this is the basis on which the Federal Officer Removal
Statute applies. Accordingly, removal on September 25,
2017 was timely.
III. Conclusion
For the foregoing reasons, Plaintiff’s motion to
remand is DENIED. An Order consistent with this
Opinion shall issue on this date.

App. 64
s/ Renee Marie Bumb
RENÉE MARIE BUMB
United States District Judge
DATED: June 20, 2018

App. 65

APPENDIX E
[Dkt. No. 13]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
Civil No. 17-7425(RMB/JS)
[Filed June 20, 2018]
_____________________________
ANNA BARAN,
)
)
Plaintiff,
)
)
v.
)
)
ASRC FEDERAL MISSION
)
SOLUTIONS, ROSE WELLS, )
FRANCES McKENNA, SUE
)
GOLDBERG, and ABC
)
BUSINESS ENTITIES 1-100, )
)
Defendants.
)
_____________________________ )
ORDER
This matter having come before the Court upon
Plaintiff Anna Baran’s Motion to Remand to the
Superior Court of New Jersey [Dkt. No. 13]; and for the
reasons set forth in the Opinion filed this date;

App. 66
Plaintiff’s Motion to Remand is DENIED.
s/ Renee Marie Bumb
RENÉE MARIE BUMB
United States District Judge
DATED: June 20, 2018

